Summary of Credit Terms
Interest Rates and
Interest Charges

Diners Club Card Premier

Diners Club Card Elite

Annual Percentage
Rate (APR) for
Purchases

13.15%This APR will vary with the

APR for Cash
Advances

22.24%
This APR will vary with the market based on the Prime Rate.

How to Avoid Paying
Interest on Purchases

Your due date is at least 25 days after the close of each billing cycle. We will not charge you any
interest on purchases if you pay your entire balance by the due date each month. We will begin
charging interest on cash advances on the Post date.

market based on the Prime Rate.

13.15%

This APR will vary with the
market based on the Prime Rate.

Minimum Interest
Charge

If you are charged interest, the charge will be no less than $0.50.

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees

Diners Club Card Premier

Diners Club Card Elite

Annual Fee

Primary Card- $95
Additional Card- $35

Primary Card- $300
Additional Card- $150

Transaction Fees
• Cash Advance
• Foreign Transaction

• Either $10 or 5% of the amount of each cash advance, whichever is greater
• NONE

Penalty Fees
• Late Payment
• Returned Payment

Up to $39
Up to $39

How We Will Calculate Your Balance: We use a method called “average daily balance” (excluding current purchases)
to calculate your purchase balance and “average daily balance” (including current advances) to calculate your cash
advance balance. See your Card Agreement for more details.
Penalty Fees: A single violation of each type will not exceed $29. However, if another violation of the same type
occurs within six billing cycles, we will charge up to the maximum fee in the table above. The Late Payment and Returned
Payment fees will not exceed the related Minimum Payment Due.
BMO Harris Bank N.A. is the issuer of Diners Club credit cards in the U.S.
OHIO RESIDENTS: The Ohio laws against discrimination require that all creditors make credit equally available to all credit
worthy customers, and that credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio
civil rights commission administers compliance with this law.
NEW YORK RESIDENTS: New York residents may contact the New York State Department of Financial Services by telephone or
visit its website for free information on comparative credit card rates, fees and grace periods. New York State Department of
Financial Services: 1-800-342-3736 or http://www.dfs.ny.gov.
NOTICE TO MARRIED WISCONSIN RESIDENTS: No provision of a marital property agreement, unilateral statement or court
decree adversely affects our rights unless we get a copy of the agreement, statement or decree before we grant you credit. You
agree that any credit granted will be used in the interest of your marriage or family. State law may require us to give notice of this
credit card account to your spouse.
IMPORTANT INFORMATION ABOUT PROCEDURES FOR OPENING A NEW ACCOUNT: To help the government fight the
funding of terrorism and money laundering activities, Federal law requires all financial institutions to obtain, verify and record
information that identifies each person who opens an account. What this means for you: When you open an account, we will ask for
your name, address, date of birth and other information that will allow us to identify you. We may also ask to see your driver’s
license or other identifying documents.
Banking products and services are provided by BMO Harris Bank N.A. and are subject to credit approval. BMO Harris® and BMO Harris Bank® are trade names used by
BMO Harris Bank N.A. Member FDIC Diners Club® and Diners Club International with Split Circle Device are registered trademarks of Diners Club International Ltd.
Rev 06/21

